  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General

       Improvements Needed in Security
        Management of the United States
      Citizenship and Immigration Services’
          CLAIMS 3 Mainframe Financial
                   Application




            Office of Information Technology

OIG-05-28                                      July 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

This report assesses access controls in place over DHS’ financial systems. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express my appreciation to all
of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Acting Inspector General
Table of Contents


  Executive Summary .........................................................................................................................1

  Background .................................................................................................................................... 3

  Results of Audit ............................................................................................................................. 5

           CLAIMS 3 Mainframe Security Responsibilities................................................................ 5

           Security Monitoring of CLAIMS 3 Mainframe Application............................................... 6

           Inappropriate CLAIMS 3 Mainframe Remote Access ........................................................ 8

           Weaknesses In CLAIMS 3 Mainframe Password Administration ..................................... 9

           Lack of Preventive Maintenance and System Upgrades ................................................... 11


Appendices
  Appendix A:            Purpose, Scope, and Methodology ..................................................................... 13
  Appendix B:            Management’s Response......................................................................................14
  Appendix C:            Major Contributors To This Report.................................................................... 19
  Appendix D:            Report Distribution............................................................................................. 20




                              Improvements Needed in Security Management of the United States Citizenship
                              and Immigration Services’ CLAIMS 3 Mainframe Financial Application
Table of Contents

Abbreviations
  CIO              Chief Information Officer
  CLAIMS 3         Computer Linked Application Information Management System 3
  DHS              Department of Homeland Security
  DOJ              Department of Justice
  EMerge2          Electronically Managing Enterprise Resources for Government
                   Effectiveness and Efficiency
  FY               Fiscal Year
  ICE              Immigration and Customs Enforcement
  INS              Immigration and Naturalization Service
  ISSO             Information Systems Security Officer
  IT               Information Technology
  LAN              Local Area Network
  MD               Management Directive
  NIST             National Institute of Standards and Technology
  OIG              Office of Inspector General
  OMB              Office of Management and Budget
  USCIS            United States Citizenship and Immigration Services




                Improvements Needed in Security Management of the United States Citizenship
                and Immigration Services’ CLAIMS 3 Mainframe Financial Application
OIG
Department of Homeland Security
Office of Inspector General



Executive Summary

                The United States Citizenship and Immigration Services (USCIS) bureau
                processes all applications and petitions for visas and for various immigrant
                benefits (e.g. change of status, employment authorization, extension of stay,
                etc). USCIS utilizes the Computer Linked Application Information
                Management System 3 (CLAIMS 3) mainframe to track pending customs and
                immigrations applications. This system also serves as the central repository
                for entering data into the USCIS’ CLAIMS 3 Local Area Network (LAN). A
                strong set of logical and physical access controls over the CLAIMS 3
                mainframe is necessary to prevent the risk of unauthorized system access that
                could result in potential disclosure of or malicious acts to this sensitive
                information. Our review focused on the access controls that USCIS has
                implemented to protect the CLAIMS 3 mainframe information.

                We evaluated whether there is adequate management in place over the
                security of USCIS’ CLAIMS 3 mainframe application. We performed our
                work at locations in Washington, DC; Rockville, Maryland; and at the
                Department of Justice’s (DOJ) Data Center in Dallas, Texas. See Appendix A
                for a discussion of our purpose, scope, and methodology.

                Access controls in place over the CLAIMS 3 mainframe are not sufficient to
                prevent unauthorized access to or loss of the system’s immigration and
                customs information. Our review disclosed that:

                    •    USCIS does not have a security administrator in place to manage the
                         day-to-day access levels and system parameters for this application,

                    •    USCIS personnel do not review and monitor user access levels to
                         ensure that only authorized individuals have access to this financial
                         system,

                    •    Passwords are not administered in accordance with DHS Security
                         policy,


                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                    Page1
OIG
Department of Homeland Security
Office of Inspector General



                              •    An individual employed at the data center where this mainframe
                                   resides can remotely access the CLAIMS 3 mainframe application
                                   from his home personal computer, and

                              •    Preventive maintenance and system upgrades are no longer being
                                   performed on this application.

                          We are recommending that the USCIS Chief Information Officer (CIO):

                               •    Designate a USCIS CLAIMS 3 security administrator,

                               •    Develop and implement a set of policies and procedures for a
                                    coordinated effort of administering and managing the CLAIMS 3
                                    mainframe security process between USCIS and ICE,

                               •    Establish procedures for a USCIS security administrator to review and
                                    monitor access controls security reports on a daily basis,

                               •    Establish procedures for a USCIS security administrator to re-certify
                                    user access privileges to the CLAIMS 3 mainframe at least on an
                                    annual basis,

                               •    Enforce DHS’ remote access policy requiring that DHS systems be
                                    accessed only through DHS approved hardware and software,

                               •    Strengthen the CLAIMS 3 mainframe password configurations in
                                    accordance with DHS’ Security Handbook1, and

                               •    Re-establish preventive maintenance and system upgrades for the
                                    CLAIMS 3 mainframe.




11
     IT Security Program Handbook (Management Directive 4300A) version 2, dated December 2003


                           Improvements Needed in Security Management of the United States Citizenship
                           and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                              Page2
OIG
Department of Homeland Security
Office of Inspector General


Background
                CLAIMS 3 is a financial application that supports processing of USCIS
                applications and petitions for various immigrant benefits (e.g. change of
                status, employment authorization, extension of stay, etc). This mainframe
                application was developed to meet the information needs of personnel at
                legacy DOJ’s Immigration and Naturalization Service (INS) headquarters,
                service processing centers, and district offices. At the service processing
                centers the CLAIMS 3 LAN, located in Rockville, Maryland, has replaced
                much of this routine processing. The CLAIMS 3 mainframe application also
                serves as the repository for all data processed in the CLAIMS 3 LAN system
                through daily batch runs. The USCIS mainframe is housed in DOJ’s Dallas
                Data Center while the application services are provided by DOJ at the
                Rockville Data Center. DHS’ Immigration and Customs Enforcement (ICE)
                is responsible for maintaining the systems access controls software and
                establishing user access privileges.

                The CLAIMS 3 mainframe application has two primary objectives:

                •   To serve effectively the operational and management needs of USCIS
                    personnel accepting and adjudicating applications and petitions for
                    benefits in district offices, service processing centers and headquarters
                    offices, and

                •   To provide the capability to extract data on immigration and customs
                    benefits and to produce aggregate statistical reports.

                CLAIMS 3 has two primary components: (1) online data entry, query, and
                adjudication system and (2) a system of batch runs that extract and report data
                and provide interfaces with other systems. Data for the CLAIMS 3 system is
                entered at the service processing centers.

                 A strong set of access controls over the CLAIMS 3 mainframe application is
                important to ensure that individuals outside of USCIS do not gain
                unauthorized access to this system’s sensitive immigration and customs



                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                    Page3
OIG
Department of Homeland Security
Office of Inspector General

                         information. OMB Circular A-1302 requires government agencies to provide
                         adequate security that is “commensurate with the risk and magnitude of the
                         harm resulting from the loss, misuse, or unauthorized access to or
                         modification of information. This includes assuring that systems and
                         applications operate effectively and provide appropriate confidentiality,
                         integrity, and availability, through the use of cost-effective management,
                         personnel, operational, and technical controls.” In addition, agencies should
                         also “assign responsibility for security in each system to an individual
                         knowledgeable in the information technology used in the system and in
                         providing security for such technology.”

                         A strong set of access controls over the CLAIMS 3 application is also
                         important as DHS moves towards the consolidation and merger of its financial
                         systems. DHS’ Electronically Managing Enterprise Resources for
                         Government Effectiveness and Efficiency (eMerge2) project will bring
                         together the Department’s legacy financial systems from 22 agencies. A pre-
                         requisite to any merger of systems is to ensure that existing weaknesses in a
                         system are not transferred over to the new system environment.

                         Finally, DHS’ FY 2004 financial statement audit3 disclosed over 35 access
                         control related issues from the review of financial systems at major DHS
                         components. Some of these issues were in existence before the establishment
                         of DHS and were transferred to DHS from legacy agencies like DOJ. These
                         issues along with the other information technology issues noted in the audit
                         report contributed to the independent auditor’s declaration of a material
                         weakness for DHS’ IT environment.




2
  Office of Management and Budget (OMB) Circular A-130, Management of Federal Information Resources Appendix
III, Security of Federal Automated Information Resources.
3
  Independent Auditors’ Report on DHS’ FY 2004 Financial Statements, Office of Audits, Office of Inspector General,
Department of Homeland Security, OIG-05-05, December 2004.


                          Improvements Needed in Security Management of the United States Citizenship
                          and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                             Page4
OIG
Department of Homeland Security
Office of Inspector General


Results of Audit

                           CLAIMS 3 Mainframe Security Responsibilities
                           USCIS does not control or manage security over its CLAIMS 3 mainframe
                           application. Although the USCIS CIO relies on ICE security administrators to
                           monitor and administer the day-to-day security responsibilities of the
                           CLAIMS 3 mainframe, this office does not have access to security reports and
                           user access lists to ensure that CLAIMS 3 mainframe security is being
                           properly administered. When the CLAIMS 3 mainframe application,
                           containing immigration and customs information, was transferred from DOJ
                           to DHS’ USCIS bureau in March 2003, responsibility for monitoring and
                           reviewing security for this system remained with DHS’ ICE bureau. As a
                           result, USCIS, the owners of the CLAIMS 3 mainframe application, must rely
                           on ICE to monitor system security issues and user access permissions on its
                           behalf. Further, DHS’ IT Security Handbook4 requires system owners to re-
                           certify user access on an annual basis but this process cannot occur if the
                           system owners and users do not have access to the tools necessary to perform
                           the monitoring. This approach to managing security of the CLAIMS 3
                           mainframe leaves the control environment surrounding sensitive immigration
                           and customs information in the hands of non-system users who do not have a
                           need to know or need to access this information.

                           Recommendation:

                           We recommend that the USCIS CIO:

                               1. Designate a USCIS CLAIMS 3 security administrator.

                           USCIS CIO Comments and OIG Analysis

                           The USCIS CIO agreed with our recommendation and stated that her office is
                           currently in the process of implementing revised procedures and controls,
                           defining and re-defining the responsibilities of the CLAIMS 3 security
4
    IT Security Program Handbook (MD 4300A), Attachment J, Section 3.0, version 2, dated December 2003.


                            Improvements Needed in Security Management of the United States Citizenship
                            and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                               Page5
OIG
Department of Homeland Security
Office of Inspector General

                           administrator, and conducting the formal appointment process for this
                           position. We accept USCIS’ response and consider this recommendation
                           resolved.


                           Security Monitoring of CLAIMS 3 Mainframe Application
                           USCIS security administrators do not review and monitor CLAIMS 3
                           mainframe security reports. This situation is occurring, in part, because
                           responsibility for security remained with ICE security administrators
                           following the creation of DHS. As a result, USCIS does not have the ability
                           to generate access controls security reports for its CLAIMS 3 mainframe
                           application because only ICE personnel have security administrator privileges
                           to this system. Further, ICE security administrators do not provide copies of
                           these CLAIMS 3 Mainframe security reports to USCIS security
                           administrators.

                           USCIS cannot be assured that only authorized users have access to its system
                           and that access privileges are proper because ICE does not provide security
                           reports or any other form of confirmation to USCIS to ensure that CLAIMS 3
                           mainframe security is being reviewed on a daily basis. User access privileges
                           should be monitored on a daily basis by system administrators to ensure that
                           user access levels are current and are necessary for users to perform their
                           current job responsibilities. When user access levels are not monitored on a
                           regular basis the potential exists that inactive accounts may remain on the
                           system over time increasing the possibility that unauthorized users may access
                           these accounts and potentially modify sensitive information. A review of
                           access control security reports helps to ensure that inactive accounts are
                           removed in a timely manner and that only authorized USCIS users have
                           access to CLAIMS 3 information.

                           DHS’ IT Security Handbook5 requires system owners to re-certify user access
                           privileges on an annual basis. Because users need to access information
                           changes over time, supervisors need to review access lists to ensure that they

5
    IT Security Program Handbook (MD 4300), Attachment J, Section 3.0, version 2, dated December 2003.


                            Improvements Needed in Security Management of the United States Citizenship
                            and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                               Page6
OIG
Department of Homeland Security
Office of Inspector General

                are current and up-to-date. If user accounts are not re-validated on a regular
                basis there is the potential that users may be granted access beyond their
                current needs, thus elevating the risk that system data could be compromised,
                and inappropriate actions (e.g., unauthorized access to funds control,
                processing payments, inventory management) could be made.

                As a part of our review to ensure that adequate access security controls are in
                place over the CLAIMS 3 mainframe we requested copies of CLAIMS 3
                mainframe security reports so that we could validate user access privileges
                and access controls software parameters. However, ICE security personnel
                were unable to provide them to us. In addition, through the interview process
                with both USCIS and ICE security personnel we also confirmed that there is
                no process in place to ensure that accounts are disabled when users have three
                unsuccessful logon. When user accounts are not locked out of the system
                after several unsuccessful password attempts, the system becomes more
                susceptible to successful hacking attempts. Guidance from the National
                Institute of Standards and Technology (NIST) indicates that organizations
                should limit the number of logon attempts to ensure that user passwords are
                changed frequently.

                Recommendations:

                We recommend that the USCIS CIO:

                    2. Develop and implement a set of policies and procedures for a
                    coordinated effort of administering and managing the CLAIMS 3
                    mainframe security process between USCIS and ICE.

                    3. Establish procedures for a USCIS security administrator to review and
                    monitor access controls security reports on a daily basis.

                    4. Establish procedures for a USCIS security administrator to re-certify
                    user access privileges to the CLAIMS 3 mainframe at least on an annual
                    basis.




                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                    Page7
OIG
Department of Homeland Security
Office of Inspector General

                           USCIS CIO Comments and OIG Analysis

                           The USCIS CIO agreed with our recommendations. According to the CIO,
                           policies and procedures for administering and managing the CLAIMS 3
                           mainframe security process including procedures for the review and
                           monitoring of access controls security reports will be in place by April 30,
                           2006. Procedures for a USCIS security administrator to re-certify user access
                           privileges for the CLAIMS 3 mainframe will be in place by October 31, 2005.
                           We accept USCIS’ response and consider these recommendations resolved.


                          Inappropriate CLAIMS 3 Mainframe Remote Access
                           DOJ personnel at the Dallas data center have inappropriate remote access
                           privileges to the CLAIMS 3 mainframe. The CLAIMS 3 mainframe system
                           resides in DOJ’s Dallas data center. During our visit to Dallas we were
                           informed that a DOJ employee has the ability to access the CLAIMS 3
                           mainframe from his home personal computer. According to DHS’ IT Security
                           Handbook6 no dial-in access will be used to access DHS applications or
                           general support systems, unless authorized in writing by the employee’s
                           Information Systems Security Officer (ISSO). In addition, DHS’ IT Security
                           Handbook7 requires that a work from home agreement should be in place that
                           identifies what government equipment and supplies will be needed by the
                           employee at home, and how the equipment and supplies will be transferred
                           and accounted for. Neither ICE nor USCIS provided us with any agreements
                           authorizing this employee to remotely access the CLAIMS 3 mainframe.
                           These types of access privileges increase the risk of unauthorized access to
                           USCIS’ CLAIMS 3 mainframe system and could lead to unauthorized
                           modifications to the system.

                           Recommendation:

                           We recommend that the USCIS CIO:

6
    IT Security Program Handbook (MD 4300), Attachment D, Section 4.2, version 2, dated December 2003.
7
    IT Security Program Handbook (MD 4300), Attachment D, Section 4.1, version 2, dated December 2003.


                            Improvements Needed in Security Management of the United States Citizenship
                            and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                               Page8
OIG
Department of Homeland Security
Office of Inspector General


                    5. Enforce DHS’ remote access policy requiring that DHS systems be
                    accessed only through DHS approved hardware and software.


                USCIS CIO Comments and OIG Analysis

                The USCIS CIO agrees with this recommendation. USCIS recognizes that the
                laptops used by DOJ personnel for remote access are inconsistent with DHS
                remote access requirements. When DHS renews the Memorandum of
                Understanding with DOJ, DHS security requirements will be incorporated into
                the documentation. USCIS anticipates that these negotiations will be
                complete by April 26, 2006. We accept USCIS’ response and consider this
                recommendation resolved.


                Weaknesses in CLAIMS 3 Mainframe Application Password
                Administration
                USCIS’ CLAIMS 3 mainframe continues to have weaknesses in its password
                configurations. Our follow up of prior year issues relating to password
                configuration and administration for the CLAIMS 3 mainframe indicated that
                weaknesses in passwords that were identified during the FY 2003 financial
                statement audit continue to exist. Specifically:

                •   Users are not required to select a new password upon initial access to the
                    system.

                •   Configuration of user passwords is not in agreement with DHS security
                    policy. (Passwords are not required to be alpha numeric, at least 8
                    characters in length, contain no dictionary words, be encrypted, and not be
                    reusable in fewer than six iterations)

                •   Privileged account passwords are not limited to a maximum lifetime of 30
                    days



                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                    Page9
OIG
Department of Homeland Security
Office of Inspector General


                           •    Upon the expiration of user ids, the system does not inform users of the
                                password formatting requirements for the creation or changing of a
                                password.

                           •    Users are not notified in advance before their passwords expire.

                           The continued use of these weak password configurations does not comply
                           with DHS’ IT Security Handbook8 which requires components to enforce
                           strong passwords for authentication to DHS IT Systems.

                           Recommendation:

                           We recommend that the USCIS CIO:

                                6. Strengthen the CLAIMS 3 mainframe password configurations in
                                accordance with DHS’ IT Security Handbook.

                           USCIS CIO Comments and OIG Analysis

                           The USCIS CIO concurs in part with this recommendation. Although USCIS
                           agrees that password configurations need to be upgraded, they do not agree
                           that a substantial investment should be made in the CLAIMS 3 mainframe
                           application since this system will be replaced during a multi-year IT
                           Transformation Program. With this IT Transformation Program, the CLAIMS
                           3 mainframe would be retired and replaced with new technology.

                           We recognize that USCIS plans to retire the CLAIMS 3 mainframe
                           application during the IT Transformation Program; however, no date has been
                           set for this retirement. Until a date for the CLAIMS 3 mainframe retirement
                           has been determined, USCIS needs to implement a strong password
                           configuration for the CLAIMS 3 mainframe to ensure that adequate controls
                           are in place to prevent unauthorized access to sensitive immigration
                           information.


8
    IT Security Program Handbook (MD 4300), Attachment J, Sections 2.0 and 3.0, version 2, dated December 2003.


                            Improvements Needed in Security Management of the United States Citizenship
                            and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                              Page10
OIG
Department of Homeland Security
Office of Inspector General


                Lack of Preventive Maintenance and System Upgrades
                Computer software systems require constant maintenance and upgrades to
                stay current with changing technologies. Maintenance on computer systems
                should be performed on a regular/scheduled basis to: update system license
                information, maintain consistency across various systems, ensure that systems
                are compatible and work is not being duplicated, monitor available system
                resources, and to identify and repair ‘bugs’ or faults in software. According to
                personnel at the data center where this mainframe resides, funding for the
                preventive maintenance and system upgrades was discontinued because of the
                pending DHS data center consolidation. This consolidation will bring
                together DHS’ data center computer hardware and software. Although several
                sites have been considered for this consolidation, there is no set timeframe for
                when the actual consolidation of equipment and resources will occur.
                Guidance on Financial Management Systems requires that all documentation
                associated with systems and software be continually updated to provide
                sufficient detail to obtain a comprehensive knowledge and understanding of
                an agency’s operation.

                Recommendation:

                We recommend that the USCIS CIO:

                    7. Re-establish preventive maintenance and system upgrades for the
                    CLAIMS 3 mainframe.

                USCIS CIO Comments and OIG Analysis

                The USCIS CIO concurs in part with this recommendation. The CIO agrees
                that maintenance and system upgrades are sound strategies; however, this
                official does not believe there is a business case to continue additional
                maintenance and system upgrades on a system that will be retired during the
                multi-year USCIS IT Transformation Program.

                We recognize that USCIS plans to retire and replace the CLAIMS 3
                mainframe application during the IT Transformation Program; however, no


                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                   Page11
OIG
Department of Homeland Security
Office of Inspector General

                date has been set for this retirement. Until a date for the CLAIMS 3
                mainframe retirement has been determined, USCIS needs to continue
                maintenance and system upgrades for this system in order to ensure that
                immigration information is accurately processed.




                 Improvements Needed in Security Management of the United States Citizenship
                 and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                   Page12
              Appendix A
              Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
              The overall objective of our audit was to determine whether there is adequate
              management in place over the security of USCIS’ CLAIMS 3 mainframe
              application. The scope of our testing included the following:

              •   Perform a physical security analysis of sites associated with the CLAIMS
                  3 Mainframe application.
              •   Provide update on security concerns identified during prior access controls
                  audits at USCIS.
              •   Review OS/390 mainframe operating system and subsystems used for the
                  CLAIMS 3 application.
              •   Review the parameters utilized by the access control software program,
                  including user profiles and access privileges.

              We conducted our audit between July 2004 and December 2004 under the
              authority of the Inspector General Act of 1978, as amended, and according to
              generally accepted government auditing standards. The fieldwork for our
              audit was conducted at the following DHS locations:

                  •   Bureau of Citizenship and Immigration Services (CIS)
                            o Headquarters location
                  •   Department of Justice (DOJ)
                            o Dallas Data Center
                            o Rockville Data Center


              The principal OIG points of contact for the audit are Frank Deffer, Assistant
              Inspector General for Information Technology Audits, (202) 254-4041; and
              Roger Dressler, Director, Information Systems and Architecture, (202) 254-
              5441. Major OIG contributors to the audit are identified in Appendix C.




              Improvements Needed in Security Management of the United States Citizenship
              and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                                Page13
Appendix B
Management’s Response




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page14
Appendix B
Management’s Response




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page15
Appendix B
Management’s Response




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page16
Appendix B
Management’s Response




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page17
Appendix B
Management’s Response




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page18
Appendix C
Major Contributors To This Report




Office of Information Technology
Information Systems and Architecture Division

Frank Deffer, AIG
Roger Dressler, Director
Sharon Huiswoud, IT Audit Manager
Anthony Nicholson, IT Auditor
Sharell Matthews, Referencer


Information Systems and Architecture Division

Jim Lantzy, Director
Lane Melton, Senior Security Engineer
Karyn Higa, Security Engineer




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                    Page19
Appendix D
Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Acting Director, USCIS
Chief of Staff
General Counsel
Executive Secretariat
DHS Chief Information Officer
DHS Audit Liaison
DHS Public Affairs
Chief Information Officer Audit Liaison
USCIS Chief Information Officer
USCIS Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




Improvements Needed in Security Management of the United States Citizenship
and Immigration Services’ CLAIMS 3 Mainframe Financial Application

                                  Page20
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
